Memorandum from the Office of the Inspector General



September 22, 2010

Robert M. Deacy, Sr., LP 5D-C
Peyton T. Hairston, Jr., WT 7B-K

FINAL REPORT – INSPECTION 2010-13034 – REVIEW OF TVA'S KINGSTON ASH
SPILL CLEAN-UP AND RECOVERY EFFORTS



Attached is the subject final report for your review. This report does not include any
recommendations and is to be used for informational purposes only. Accordingly, no
response is necessary.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Michael R. Patty, Auditor, at (423) 785-4821 or
Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at (423) 785-4810.
We appreciate the courtesy and cooperation received from your staff during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

KSL:NLR
Attachment
cc (Attachment):
    Janet C. Herrin, WT 10D-K                         David R. Mould, WT 7B-K
    John C. Kammeyer, LP 5D-C                         Anda A. Ray, WT 11A-K
    Tom D. Kilgore, WT 7B-K                           Emily J. Reynolds, OCP 1L-NST
    Katherine B. Kline, KFP 1T-KST                    Joyce L. Shaffer, WT 9B-K
    William R. McColllum, Jr., LP 6A-C                John M. Thomas III, MR 3A-C
    Stephen H. McCracken, KFP 1T-KST                  Robert B. Wells, WT 9B-K
    Annette L. Moore, LP 3K-C                         Wendy Williams, WT 9B-K
    Richard W. Moore, ET 4C-K                         OIG File No. 2010-13034
                 




                    Tennessee Valley Authority
                    Office of the Inspector General
 

Inspection Report
     



                                                        

                                                        

 

 

 

 
REVIEW OF TVA’S
 


KINGSTON ASH SPILL
CLEAN-UP AND
RECOVERY EFFORTS
 




 

 
 
 

 
                               Inspection 2010-13034
                                  September 22, 2010



 


             
Office of the Inspector General                                       Inspection Report




ACRONYMS AND ABBREVIATIONS
AOC                        Administrative Order and Agreement on Consent
CERCLA                     Comprehensive Environmental Response, Compensation,
                           and Liability Act
COT                        Community Outreach Team
EPA                        Environmental Protection Agency
EE/CA                      Engineering Evaluation/Cost Analysis
OIG                        Office of the Inspector General
ORAU                       Oak Ridge Associated Universities
RAO                        Removal Action Objective
TDEC                       Tennessee Department of Environment and Conservation
TVA                        Tennessee Valley Authority




Inspection 2010-13034
Office of the Inspector General                                                                  Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i
BACKGROUND................................................................................................ 1
    TVA'S IMMEDIATE ACTIONS ........................................................................ 1

    SPILL CLEAN-UP AND RECOVERY .............................................................. 2

    TVA COMMITMENT ....................................................................................... 2

    OIG OVERSIGHT ........................................................................................... 4

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 4
FINDINGS ......................................................................................................... 4
    TVA'S COMMITMENT TO CLEAN-UP AND RESTORE THE AREA
    TO PRE-SPILL CONDITION ........................................................................... 5
         TVA Met Its Goal for Removing Time Critical Ash ..................................... 5
         Plan for Removing the Non-Time Critical Ash is in Place ........................ 11
         Good Working Relationship Between TVA, TDEC, and EPA................... 14
         Environmental Monitoring ........................................................................ 14

    TVA'S COMMITMENT TO PROVIDE REPARATIONS
    TO THE VICTIMS, RESTORE THE COMMUNITY,
    AND REGAIN PUBLIC TRUST ..................................................................... 16
         Real Estate and Personal Property Claims .............................................. 16
         Real Property Claims ............................................................................... 17
         Personal Property Claims ........................................................................ 18
         TVA Economic Development Funding -- $43 Million ................................ 19
         TVA's Community Stewardship................................................................ 21
         TVA Sponsored Research Activities ........................................................ 24
         Communication Improvement .................................................................. 25
         Health Monitoring Program ...................................................................... 27


APPENDICES
A. ALTERNATIVES DEVELOPED IN THE EE/CA STUDY

B. OBJECTIVES, SCOPE, AND METHODOLOGY

C. MEMORANDUM DATED SEPTEMBER 17, 2010, FROM ROBERT M. DEACY TO
   ROBERT E. MARTIN



Inspection 2010-13034
           Inspection 2010-13034 – Review of TVA’s Kingston
                Ash Spill Clean-up and Recovery Efforts
                              EXECUTIVE SUMMARY

Why the OIG Did This Review

  Based on the OIG’s (Office of the Inspector General) ongoing commitments to
  provide oversight of the Kingston Fossil Plant ash spill clean-up and perform a
  follow-up review of reparations to victims, we assessed TVA’s (Tennessee Valley
  Authority) clean-up and recovery efforts. Specifically, on December 9, 2009,
  Richard W. Moore, TVA’s Inspector General, testified before the Subcommittee
  on Water Resources and Environment, U.S. House Committee on Transportation
  and Infrastructure. In his testimony, Mr. Moore stated that the TVA OIG will
  measure and track TVA’s progress in addressing the findings and
  recommendations in our reports and is committed to performing a follow-up
  review of reparations to victims.

  The objectives of this review were to assess TVA's progress in two areas: (1) the
  clean-up of the ash and returning the area to its previous condition and
  (2) reparations to victims and restoration of the community.

What the OIG Found

  TVA’s actions to date indicate it is committed to cleaning up the Kingston Ash
  Spill and restoring the area to its pre-spill condition. TVA has also provided
  reparations to the victims and is making progress toward restoring the community
  to its previous state. We found, (1) clean-up efforts are proceeding judiciously
  and (2) specific TVA actions not only appropriately address restoration but also
  show a commitment to regain public confidence.

  TVA's Commitment to Clean Up and Restoration of Area to Pre-spill
  Condition
  We found comprehensive efforts have been completed and are still ongoing
  pertaining to the clean-up of the spill. TVA is making significant progress in the
  clean-up and continues to consider human health and the environment in the
  recovery. Specifically, we found that TVA (1) met its goal of removing the time
  critical ash necessary to reopen the Emory River by the end of May 2010,
  (2) implemented a removal plan for non-time critical ash in spring 2010 to
  facilitate a smooth transition between clean-up phases, (3) developed a good
  working relationship with the Environmental Protection Agency (EPA) and the
  Tennessee Department of Environment and Conservation (TDEC) to manage
  and facilitate the clean-up, and (4) coordinated with EPA and TDEC to provide
  continuous environmental monitoring.




                                                                                       Page i
           Inspection 2010-13034 – Review of TVA’s Kingston
                Ash Spill Clean-up and Recovery Efforts
                              EXECUTIVE SUMMARY

  TVA's Commitment to Providing Reparations to the Victims and Restoring
  the Community
  We found TVA has made a concerted effort to address restoration and regain
  public trust. Specifically, TVA immediately established a process to handle real
  and personal property, loss of business, and mileage claims. In addition, we
  found TVA’s adjudication of the claims was consistent, and in accordance, with
  approved processes and guidelines.

  Other actions TVA has taken to restore the community and regain public trust
  have included:

     Committing $43 million to economic development in Roane County.
     Initiating projects to improve community infrastructure, lessen the impact of
      recovery operations on the public, and promote Roane County.
     Promoting the sharing of information and coal ash research.
     Implementing various mechanisms to improve communications, address
      inquiries, and provide information to the Kingston residents and media.
     Providing independent health screenings.


Management Comments on Draft Report

  The Senior Vice President and Executive, Kingston Ash Recovery Project, in
  conjunction with the Senior Vice President, Diversity and Labor Relations,
  provided comments on a draft of this report. TVA management agreed with our
  findings and provided a few administrative and clarifying comments for our
  consideration. We reviewed and agreed with the technical comments provided
  and modified the report accordingly. Management’s complete comments are
  included in Appendix C of this report.




                                                                                      Page ii
Office of the Inspector General                                       Inspection Report



BACKGROUND
On Monday, December 22, 2008, between 12 midnight and 1 a.m., a portion of
the dike for an ash containment area at Kingston Fossil Plant failed.
Approximately 5.4 million cubic yards of fly ash and bottom ash were released
onto land and adjacent waterways, including the Emory River that flows into the
Clinch River near the plant. The approximate 1 billion gallons of coal combustion
waste slurry covered about 300 acres of which 8 acres were privately owned
lands, not owned or managed by Tennessee Valley Authority (TVA). The
impacts of the tsunami and coal ash sludge destroyed and/or damaged (1) the
railroad adjacent to the plant, (2) real and personal property, and (3) community
infrastructure, including roads and utilities. TVA took immediate and ongoing
actions to address the needs of those affected, clean up the spill, and protect
human health and the environment. TVA also took action and made
commitments to restore the area and regain public confidence and reiterated
TVA’s commitments many times. Correspondingly, TVA’s Office of the Inspector
General (OIG) committed to providing ongoing oversight, where warranted, and
performing a follow-up review on reparations.

TVA’S IMMEDIATE ACTIONS
TVA stated the first concerns, after determining there was no loss of life and no
injuries needing medical attention, included safety of those near the plant and
helping the people immediately impacted. In addition to damage assessments
and visual inspections of the remaining coal ash impoundments at Kingston,
visual inspections of all TVA coal ash and gypsum impoundments were
immediately conducted and these inspections continue on a daily basis. Victims
were provided housing, meals, and other necessities. In addition, TVA:

   Provided gift cards for food and clothing, cellular telephone service, and even
    money to replace Christmas gifts.
   Provided bottled water to those in the community whose water supply had
    been disrupted.
   Formed a Community Outreach Team (COT). The COT consisted of seven
    retirees, three Kingston employees, and two administrative assistants. TVA
    also named a Community Outreach Coordinator whose primary role was to
    listen to the citizens of Roane County and to address their concerns.
   Made door-to-door deliveries/visits, conducted a series of homeowners'
    meetings, placed informational ads in various media outlets, provided a
    recovery update telephone line, opened a community outreach center, and
    provided e-mail updates. TVA continues to make visits, hold meetings, and
    provide e-mail updates to those who have that option available. During the
    first 2 months following the spill, the community outreach center worked with
    more than 600 families. According to the Senior Vice President, Fossil
    Generation Development and Construction, the outreach center continues to

Inspection 2010-13034                                                           Page 1
Office of the Inspector General                                                           Inspection Report


     be open from 2 p.m. to 6 p.m. daily to answer any questions and to provide
     community needs assistance.
    Developed processes for the handling of real and personal property claims,1
     including acquisition and damage settlement actions. Furthermore, the
     acquisition of land and personal property was extended to those TVA deemed
     would be impacted by the recovery.

SPILL CLEAN-UP AND RECOVERY
TVA is working with the Environmental Protection Agency (EPA) and the
Tennessee Department of Environment and Conservation (TDEC) to manage the
clean-up of the Kingston Ash Spill in accordance with the Comprehensive
Environmental Response, Compensation, and Liability Act (CERCLA).2 The
major recovery work necessary at Kingston is divided into time critical
(i.e., Phase I) and non-time critical (i.e., Phase II) activities. The time critical
work focused on removing the ash from the Emory River’s main channel and
from the waters directly east of the site’s ash-storage area. The non-time critical
ash consists of the ash in the embayments and on land west of Dike 2. TVA
finished removing the time critical ash necessary for the reopening of the Emory
River at the end of May 2010.3 In the recovery efforts, TVA considers the impact
to public health and the environment. For example:

    The comprehensive recovery plan included comprehensive monitoring of air,
     water, and soil.
    TVA has provided human health exposure information and a mechanism for
     individuals to have independent examinations.

TVA COMMITMENT
On January 8, 2009, Tom D. Kilgore, President and Chief Executive Officer of
TVA, testified before the U.S. Senate Environment and Public Works Committee.
Mr. Kilgore stated that life in the Tennessee Valley region and the natural beauty
of the region are special, and TVA is committed to restoring and protecting these
resources. He assured the committee that "TVA will do a first-rate job of
containment and remediation of the problems caused by the spill. We are going
to be able to look our neighbors in the eye and say that TVA is doing the right
thing."

1
    The database for personal property claims included business interruption and mileage reimbursement
    claims. Therefore, for this report, our characterization of personal property claims includes claims for
    damage and destruction to personal property, business interruption, and mileage reimbursement.
2
    On May 11, 2009, TVA and EPA entered into an Administrative Order and Agreement on Consent (AOC)
    under Sections 104(a), 106(a), and 107 of the CERCLA of 1980 pursuant to which TVA will perform the
    removal action described in the AOC. This removal action involves the removal, processing, and
    disposal of a major portion of the ash material that was released into the Emory River from the Kingston
    Fossil Plant.
3
    Some small pockets of Phase I critical ash not necessary for the reopening of the Emory River were
    addressed in June 2010.
Inspection 2010-13034                                                                                Page 2
Office of the Inspector General                                         Inspection Report


On March 31, 2009, before the Subcommittee on Water Resources and
Environment, U.S. House Committee on Transportation and Infrastructure,
Mr. Kilgore reemphasized that TVA is committed to cleaning up the spill and
protecting human health and the environment. He also cited that TVA looks for
opportunities, in concert with community leaders, to make the area better than it
was before the spill occurred, and TVA is working to make things right.
Specifically, the objectives cited in his testimony were to:

   Protect the health and safety of the public and recovery personnel.
   Protect and restore environmentally sensitive areas.
   Keep the public and stakeholders informed and involved in formulation of the
    response activities.
   Clean up the spill and improve the area wherever possible in coordination
    with the people of Roane County.

Mr. Kilgore once again testified before the Subcommittee on Water Resources
and Environment, U.S. House Committee on Transportation and Infrastructure on
December 9, 2009. Mr. Kilgore’s testimony included a recovery and TVA
performance update. Specifically, his testimony addressed, among other things,
(1) restoration efforts including clean-up progress, purchase of affected
properties, and TVA’s economic development commitment of over $40 million to
the Roane County community, (2) environmental monitoring results, (3) initiatives
taken regarding public health and safety, and (4) actions taken to improve overall
TVA performance by addressing deficiencies in corporate culture and enterprise
risk management. Mr. Kilgore also recapped TVA’s commitment in his
testimony. Specifically, he stated:

         Since the spill occurred, our commitment has not wavered--to clean
         up the spill, protect the public health and safety, and to restore the
         area. We have also continued to look for opportunities, working
         closely with the leaders and residents of Roane County, to make
         the area better than it was before the spill. We are deeply grateful
         to the community for their patience and support, and regaining the
         public's trust is important to all of us at TVA.




Inspection 2010-13034                                                             Page 3
Office of the Inspector General                                       Inspection Report


OIG OVERSIGHT
As stated previously, TVA’s Inspector General, Richard W. Moore, committed his
office to measure and track TVA’s progress and perform a follow-up review of
reparations to victims.

The TVA OIG has completed, or currently has in-progress, several reviews
pertaining to the initial emergency response, root cause analysis, environmental
monitoring, and impoundment stability. On June 12, 2009, the TVA OIG issued
the first in a series of reports, Inspection 2008-12283-01 – Kingston Fossil Plant
Ash Slide Interim Report. The first report evaluated TVA’s (1) initial emergency
response, (2) response to the media, and (3) reparations to the victims and
restoration of the community. This review is a follow-up assessment of TVA’s
clean-up progress and reparations to victims and restoration of the community.

OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to assess TVA's progress in two areas: (1) TVA's
commitment to the Kinston Ash Spill clean-up and the return of the area to its
previous condition and (2) TVA's actions pertaining to reparations to victims and
restoration of the community. The scope of this review includes TVA’s actions
taken since our previous review regarding spill clean-up and reparations to the
victims and community.

To perform this review, we interviewed TVA and regulatory officials as well as
community leaders. We also obtained and analyzed various documents
pertaining to clean-up and restoration efforts. Additional information about our
methodology can be found in Appendix B.

This review was conducted in accordance with the "Quality Standards for
Inspections."

FINDINGS
TVA’s actions to date indicate it is committed to cleaning up the Kingston Ash
Spill and restoring the area to its pre-spill condition. TVA has also provided
reparations to the victims and is making progress toward restoring the community
to its previous state. We found (1) clean-up efforts are proceeding judiciously
and (2) specific TVA actions not only appropriately address restoration but also
show a commitment to regain public confidence.




Inspection 2010-13034                                                           Page 4
Office of the Inspector General                                                             Inspection Report


TVA'S COMMITMENT TO CLEAN-UP AND RESTORE THE AREA
TO PRE-SPILL CONDITION

We found comprehensive efforts have been completed and are still ongoing
pertaining to clean up of the spill. TVA is making significant progress in the
clean-up and continues to consider human health and the environment in the
recovery. Specifically, we found that TVA (1) met its goal of removing the time
critical ash necessary to reopen the Emory River by the end of May 2010,
(2) implemented a removal action plan for the non-time critical ash in spring 2010
to facilitate a smooth transition between Phases I and II4 clean-up operations,
(3) developed a good working relationship with EPA and TDEC to manage and
facilitate clean-up activities, and (4) coordinated with EPA and TDEC to provide
continuous environmental monitoring.

TVA Met Its Goal for Removing Time Critical Ash
The first phase of TVA’s clean-up activities at Kingston pertained to the removal
of time critical ash.5 We found TVA is making significant progress in the clean-up
and continues to consider human health and the environment in the recovery.

During numerous TVA OIG visits to the ash spill site, we observed extensive and
ongoing clean-up operations. Ash was dredged from the Emory River channel,
sluiced to ditches where it is treated with polymer, dewatered, and temporarily
stored at Kingston. The dewatering area is sloped to drain into the plant’s
existing ash pond, and drainage has been engineered at the site to contain the
runoff. Groundwater wells were drilled and are being monitored.




4
    Phase I is plan for removal of time critical ash. Phase II is plan for removal of non-time critical ash.
5
    TVA has designated ash recovery in waters directly east of the ash storage area as "time-critical" or
    “Phase I” because removing it quickly reduces the chance that the ash will move downstream, restores
    flow, reduces flood risk, and allows for recreation to resume in selected areas.
Inspection 2010-13034                                                                                  Page 5
Office of the Inspector General                                     Inspection Report


Figure 1 shows the sluiced ash being removed and temporarily placed in the
temporary storage area.




                                                                    Figure 1

The removed ash is placed into filter presses as shown in Figure 2. The filter
press removes moisture from the ash.




                                                                    Figure 2




Inspection 2010-13034                                                          Page 6
Office of the Inspector General                                      Inspection Report


Once ash has been excavated and temporarily placed in the storage staging
area at the plant, lime is sprinkled onto the ash to speed up the drying process.
The ash is then placed into train cars to be sent to the Arrowhead Landfill in
Perry County, Alabama. We were informed by the Senior Manager, Kingston
Recovery Operations, that ash has to be at a 25 percent moisture level before it
can be shipped to Perry County, Alabama.

Figure 3 shows equipment dousing lime onto the ash at the temporary staging
area where it is loaded onto train cars.




                                                                    Figure 3




Inspection 2010-13034                                                          Page 7
Office of the Inspector General                                                        Inspection Report


TVA utilizes special rail car liners (i.e., "Burrito Wraps") in each rail car so ash
particulates are less likely to escape, as shown in Figure 4.




                                                                                       Figure 4
                             Source: TVA Kingston Recovery Progress Photographs


As stated previously, TVA met its goal for removing the time critical ash and the
Emory River reopened on schedule on May 29, 2010, after being closed
following the Kingston Ash Spill.6 According to the General Manager of the Site-
Recovery Operations, "The opening of the river is a milestone in TVA’s
continuing work to restore the area and shows our commitment to the Kingston
community." As of June 6, 2010, approximately 2,400,000 tons of ash has been
transported to Perry County, Alabama. While all time critical ash has been
removed from the river, off-site disposal of the ash removed from the Emory
River to Perry County, Alabama, will continue through the end of 2010.




6
    TVA’s goal was the removal of Phase I critical ash necessary for the reopening of the Emory River by
    May, 2010. We did note that some outlying pockets not necessary for reopening the river were removed
    in June 2010.
Inspection 2010-13034                                                                             Page 8
Office of the Inspector General                                   Inspection Report


Figures 5 and 6 are pictures of the Emory River where clean-up has occurred
and the river reopened.




                                                                 Figure 5




                                                                 Figure 6




Inspection 2010-13034                                                       Page 9
Office of the Inspector General                                   Inspection Report


Figures 7 and 8 are pictures of a backwater area of the Emory River where time
critical ash has been removed.




                                                                  Figure 7




                                                                  Figure 8




Inspection 2010-13034                                                        Page 10
Office of the Inspector General                                     Inspection Report


TVA faced the challenge of cleaning the area without causing more harm. For
example, removing the time critical ash quickly reduces the chance that the ash
will move downstream, restores flow, reduces flood risk, and allows for recreation
to resume in selected areas. TVA monitored the plume created by dredging and
dredged only to designated depths that would restore flow to the original channel
without disturbing existing "legacy" and native river sediments. TVA has openly
publicized that some of the ash will remain in the Emory River.

Plan for Removing the Non-Time Critical Ash is in Place
In order to have a smooth transition between Phase I and Phase II operations, it
was necessary for TVA to obtain EPA and TDEC approval and to implement a
removal action plan by spring 2010. TVA, EPA, and TDEC developed a work
plan for selecting the method of removal of the non-time critical ash in the
embayments and on land west of Dike 2. This plan is known as the CERCLA
Engineering Evaluation/Cost Analysis (EE/CA) Work Plan. Figure 9 shows
ongoing work corresponding to the failed impoundment continues.




                                                                    Figure 9




Inspection 2010-13034                                                          Page 11
Office of the Inspector General                                                              Inspection Report


The EE/CA Work Plan presented three alternatives to meet the CERCLA
requirements to (1) protect public health and the environment over the long-term,
(2) comply with state and local regulations, and (3) be cost effective. According
to EPA, all alternatives had to meet the following Removal Action Objectives:

    Minimize direct contact between ash material and the Swan Pond
     Embayment and water flowing through the embayment area into Watts Bar
     Reservoir.
    Minimize migration of ash and its constituents from the Swan Pond
     Embayment or dredge cell into affected waters due to erosion.
    Minimize direct contact exposure by human or ecological receptors to ash on
     the ground.
    Restore the Swan Pond Embayment to pre-spill conditions.
    Close the former dredge cell in accordance with applicable Tennessee Solid
     Waste Rules.
    Dispose of waste streams from the removal action.

According to a January 2010 EPA fact sheet, CERCLA also required each
alternative to be evaluated based on the following criteria:

    Effectiveness of technology to meet the removal action objectives in terms of
     overall protection of human health and the environment, compliance with
     applicable requirements, long-term effectiveness and permanence, and short-
     term effectiveness.
    The technical and administrative feasibility of implementing an alternative and
     the availability of materials, equipment, or services required during
     implementation.
    The estimated relative cost of each technology, which includes the capital
     cost of material, equipment and installation, and annual operating and
     maintenance costs such as mowing, erosion repair, and dike repair.

The differences between the three main alternatives7 included (1) the amount of
coal ash disposed off-site verses on-site, (2) final elevation of closed dredge cell,
(3) type and amount of construction traffic, (4) duration of work, and (5) cost.
Common elements among the three alternatives included (1) restoration of
embayments and sloughs to pre-spill conditions, (2) closure of failed dredge cell
and adjacent ash pond, and (3) enhanced perimeter dikes designed to withstand
liquefaction8 of foundation ash at earthquake loads. Specific elements of all
three alternatives are summarized in Appendix A of this report.


7
    There were three main alternatives studied for the removal of the non-time critical ash. However, there
    were slight variations in the alternatives denoted by ‘a’ and ‘b’ (e.g., option 3b). See Appendix A for more
    information.
8
    Liquefaction is the conversion of soil into a fluid-like mass during an earthquake or other seismic event.
Inspection 2010-13034                                                                                  Page 12
Office of the Inspector General                                       Inspection Report


The EE/CA Work Plan was available for public comment from January 19, 2010,
to April 5, 2010. After public comments were considered, the Non-Time Critical
Removal Action Embayment/Dredge Cell Action Memorandum was released on
May 18, 2010. The memorandum cited the chosen alternative and included
TVA's responses to public comments. TVA received comments from
36 individuals and various groups, including the Roane County Environmental
Review Board, the Environmental Integrity Project, and the Roane County
Community Advisory Group.

According to EPA and our review of comments, the majority of those who
provided public comments supported Alternative 3 that called for on-site disposal.
That alternative was selected by TVA and approved by EPA and TDEC. The
May 18, 2010, Non-Time Critical Removal Action Embayment/Dredge Cell Action
Memorandum states that the alternative was selected:
         …because it meets the RAOs [Removal Action Objective], complies
         with [applicable requirements], effectively and safely contains the
         ash, minimizes off-site transportation and disposal impacts,
         reduces uncertainty associated with acceptability of off-site
         disposal, and is the most cost effective.
According to a May 2010 EPA fact sheet, the chosen alternative calls for
fly ash that was released into the Swan Pond Embayment, as well as the
ash that was not released from the ash pond and former dredge cell, to
remain on-site. Other specifics include:

   No material will be taken off-site, and a new dike that reaches down to the
    shale bedrock will be installed around the perimeter of the on-site disposal
    area to keep ash from entering the Swan Pond Embayment in the future.
   The new dike will consist of overlapping soil-cement columns that will be able
    to withstand a local 6.0 magnitude earthquake.
   The project is expected to take four years to complete. It will cost
    approximately $268.2 million with an estimated $686,000 per year in annual
    maintenance costs for the first 30 years.
   A review will be conducted by EPA every five years to ensure structural
    integrity of the cell.

Per EPAs April 2010 Quarterly fact sheet, Phase III is part of the non-time
critical activities and will involve the completion of a comprehensive
ecological and human health assessment of any residual ash that is left
behind. According to EPA, this study will take between 18 and 24 months
to complete and will be a comprehensive analysis on anything that swims,
walks, or crawls.




Inspection 2010-13034                                                          Page 13
Office of the Inspector General                                          Inspection Report


Good Working Relationship Between TVA, TDEC, and EPA
During our review, we interviewed TVA, TDEC, and EPA personnel to ascertain
the level of communication, coordination, and working relationship between the
three agencies. We determined that while there have been some challenges, the
overall consensus between the agencies is that a good and effective relationship
exists. For example:

   During a discussion, the TDEC on-site coordinator stated that the biggest
    issue was communication due to the large quantity of documentation that is
    involved in the clean-up. The coordinator further stated that it has been a
    challenge to track all of the documentation; however, the clean-up operation
    is currently meeting all milestones, which is a "major success story" for this
    type of operation. It was further stated by the TDEC representative that all
    three agencies have made an effort to attend to or address all of the citizens'
    concerns.
   When asked about the working relationship between EPA and TVA, the EPA
    remedial project manager stated that it had been great, especially on the TVA
    side. It was also stated that in past projects, TVA was not nearly as
    accommodating as it has been during this project. However, EPA's on-site
    coordinator stated that one difficulty was in trying to change TVA's culture
    from reactive to proactive.
   The TVA general manager of Kingston Recovery said that the working
    relationship between agencies was the best experience he has had in
    working with multiple different agencies because each agency wants the
    same, speedy outcome for this clean-up project. He also mentioned that he
    had been involved in clean-up projects outside of TVA that moved slower and
    got bogged down in processes; however, the current on-site EPA personnel
    have done an outstanding job of taking needed actions and getting work
    done.

Environmental Monitoring
TVA continues to monitor air and water during the non-time critical ash removal
activities. Under the EPA and TDEC approved “Non-Time Critical Surface
Water” and “Dust Control and Air Monitoring” plans, TVA will monitor air and
water at the site until the end of non-time critical ash removal. Ground and
surface water sampling as well as sediment and biologic sampling are ongoing.
The sampling data along with other information will be used to support an
assessment of the Emory River and other river areas impacted by the spilled
ash. Further long-term commitments to monitoring, beyond non-time critical ash
removal, will be dependent upon results of the assessment and will be evaluated
and determined as non-time critical activities come to closure.

TVA’s environmental monitoring program at Kingston focuses on ongoing
evaluation of different media including (1) air; (2) water (i.e., surface, raw, storm,
and groundwater); (3) sediment; and (4) biological. These medias comprise
important migration pathways that could potentially expose human and/or
ecological populations in the vicinity of the spill. TVA has five fixed-location air
Inspection 2010-13034                                                            Page 14
Office of the Inspector General                                        Inspection Report


monitoring stations around the plant and spill site and one off-site monitoring
station, as well as handheld instruments to monitor the air quality around the
Kingston site. TVA continues to investigate ecological pathways for any possible
effects of fly ash contaminants, including longer-term effects from possible
bioaccumulation. Results from studies thus far show no significant impacts on
the fish, birds, and other organisms living within the vicinity of the spill. EPA has
stated that they will be monitoring the site for the next 30 years to ensure that
environmental conditions remain at acceptable levels. TVA also plans to
continue environmental monitoring well after the recovery efforts have been
completed.

We also want to note in this report that Marshall Miller & Associates, Inc. was
engaged by the TVA OIG to perform environmental reviews pertaining to the
Kingston Ash Spill. The scope of Marshall Miller’s work included reviewing:

   The sampling and monitoring plans prepared by TVA following the ash
    release that occurred on December 22, 2008. Marshall Miller evaluated the
    adequacy and completeness of TVA’s environmental recovery plans to
    determine whether these plans provide comprehensive and effective
    measures to adequately monitor the potential short and long-term impacts to
    human and ecological receptors. This inspection (i.e., Inspection Report
    2008-12283-07) focused on two key areas, data management, and review of
    the environmental monitoring program. In summary, Marshall Miller found no
    significant deficiencies in the plans or procedures used by TVA or its
    contractors in characterizing impacts resulting from the ash release or
    recovery efforts.
   The transportation and disposal plans prepared by TVA in response to the
    ash release. In addition, Marshall Miller determined if appropriate steps are
    being taken to minimize the environmental impacts and if regulatory
    requirements are being met. This inspection (i.e., Inspection Report 2008-
    12283-08) found that TVA is taking appropriate steps to minimize the
    environmental impacts of transporting ash from Kingston to the Arrowhead
    Landfill in Perry County, Alabama. Furthermore, no significant deficiencies in
    documents reviewed, regulatory requirements, or in the landfill operations
    were found.
   TVA’s long-term recovery plans for the areas affected by the ash spill. This
    inspection (i.e., Inspection Report 2008-12283-06) found no significant
    deficiencies in any of the proposed alternatives, including the selected
    alternative for the restoration of the Swan Pond Embayment.

TVA'S COMMITMENT TO PROVIDE REPARATIONS TO THE
VICTIMS, RESTORE THE COMMUNITY, AND REGAIN PUBLIC
TRUST

TVA’s actions to date have shown a commitment to provide reparations to
victims and restore the community. Specifically, TVA immediately established a

Inspection 2010-13034                                                          Page 15
Office of the Inspector General                                                         Inspection Report


process to handle real and personal property claims. In addition, we found TVA’s
adjudication of the claims was consistent, and in accordance, with approved
processes and guidelines.

Furthermore, we also found TVA has taken significant actions to restore the
community and regain public trust. Actions include (1) committing $43 million to
economic development in Roane County, (2) infrastructure, clean-up, and
marketing considerations/deliverables, (3) the promotion of information sharing
and coal ash research, (4) communication improvement initiatives, and
(5) providing independent health screenings.

Real Estate and Personal Property Claims
Immediately following the spill, TVA made a commitment to those directly
affected by the spill to restore their lives. We found that not only did TVA
address immediate needs of those impacted by the Kingston Ash Spill,
processes and criteria were developed and approved to address real and
personal property claims. Real and personal property claim settlements have
totaled $46,139,375 through July 29, 2010, and $493,859 through July 27, 2010,
respectively. TVA continues to work to settle claims, as demonstrated by TVA’s
recent settlements in June 2010 of two of the most challenged claim offers. The
Senior Vice President, Fossil Generation, Development and Construction,
informed us on July 1, 2010, that:

    TVA has a process to reopen property acquisition discussion with local
     residents who previously had declined TVA’s offer to purchase their property.
    TVA has a process to ensure that responses to claims filed with TVA’s claims
     adjustor, Crawford and Company,9 are handled quickly. This process will
     continue until there are no longer new claims filed.

During this review, we selected a random sample of real and personal property
claims to determine if TVA’s adjudication of the claims was consistent, and in
accordance, with approved guidelines/criteria. In summary, for the claims we
selected for review we found that TVA’s adjudication of the claims was
consistent, and in accordance, with approved processes and guidelines.




9
    Crawford is based in Atlanta, Georgia, and is an independent provider of claims management solutions
    to the risk management and insurance industry as well as self-insured entities.
Inspection 2010-13034                                                                             Page 16
Office of the Inspector General                                                            Inspection Report


Real Property Claims
We chose a random sample of 15 settled real property claims to determine if
TVA adjudicated the claims consistently, and in accordance, with established
guidelines/criteria. The claims reviewed were selected from the population of
real property claims settled as of May 14, 2010. In summary there were
154 claims totaling $44,078,97510 as of May 14, 2010. As of July 29, 2010, we
determined there were in total 196 real property claims.

We found that TVA developed a claims process for the acquisition of real
property that has been affected by the ash spill or by the recovery. The claims
process was approved by the TVA Board of Directors. Specifically, the process
first requires two independent appraisals of the property. In the limited
circumstances when there is a significant difference between these appraisals,
TVA obtains a third appraisal from an appraiser holding the MAI designation from
the Appraisal Institute. The highest appraised value of the property is used by
TVA in determining what amount to offer the owner. TVA also considers
information provided by the owner in response to TVA’s offer, including any
additional appraisals provided by the owner. Once the fair market value is
established and the owner agrees, TVA pays that amount at closing, adjusted for
liens, pro rata taxes, and other items identified on the agreed closing statement.
Furthermore, if there is to be any compensatory payment by TVA, it is also paid
at closing.

To determine if the claims were handled consistently, and in accordance, with
established guidelines/criteria for the claims selected for evaluation, we reviewed
documentation and conducted interviews, as necessary, to verify that:

     Two independent appraisals were conducted.
     The highest appraisal value was used for payment.
     If a significant variance existed between the original two appraisals, a third
      independent appraisal was conducted.
     The payment made had proper TVA approval based on the authority granted
      by the TVA Board.
     A settlement agreement was signed by TVA and the applicable owner.
      We also reviewed claim documentation to identify any process exceptions
      and/or unusual transactions. Based upon our review of the documentation for
      the claims we selected for review, we determined there were no exceptions
      and found nothing to indicate that the real property claims were not handled in
      a consistent manner, and in accordance, with TVA’s approved process and
      guidelines/criteria.




10
     Some of the acquired properties were necessary for recovery efforts and other properties are being used
     to house TVA clean-up employees as well as contractors.
Inspection 2010-13034                                                                               Page 17
Office of the Inspector General                                       Inspection Report


Personal Property Claims
We chose a random sample of 15 settled personal property claims to determine if
TVA adjudicated the claims consistently, and in accordance, with established
guidelines/criteria. The claims reviewed were selected from the population of
personal property claims settled as of March 8, 2010. In summary, there were
221 personal property claims of which 66 were settled totaling $458,177.

TVA contracted with Crawford to handle all personal property claims. Personal
property claims included the following:

   Docks, boat houses, and other general property
   Watercraft
   Miscellaneous items, such as outdoor furniture, play equipment, and sports
    equipment
   Business income loss
   Mileage for extra travel on alternate routes by residents due to road
    destruction and closure

Crawford developed a claims process for handling all personal property claims
that TVA approved. After receiving a call from a claimant and obtaining all
relevant/necessary information, a field adjuster determines whether a physical
inspection is required. For all claims, except business loss and mileage claims, a
field adjuster inspects the property, obtains estimates, and writes the appraisal.
The inspection, estimates, and appraisal are included in a report that is submitted
to TVA for approval. Once by TVA and agreed on by the claimant, TVA provides
the claimant compensation and the claimant would sign a settlement agreement.

In the case of a business loss claim, the business is required to submit a
narrative stating how the loss resulted from the ash spill. Businesses are also
required to submit other documentation, such as former tax information in order
to substantiate the claim. In the case of mileage claims, residents fill out mileage
worksheets and sign a form to confirm that their statement of mileage is
accurate. TVA then reimburses claimants for extra mileage driven due to road
closings relating to the ash spill.

To determine if the claims were handled consistently, and in accordance, with
established guidelines/criteria, we reviewed documentation for selected claims to
verify:

   A physical inspection was performed.
   An appraisal was conducted.
   Estimates were obtained.



Inspection 2010-13034                                                         Page 18
Office of the Inspector General                                        Inspection Report


   The claimant submitted proper documentation in the case of business loss
    and mileage claims.
   Crawford submitted a formal report to TVA.
   The claim had proper TVA approval.
   The claimant signed a settlement agreement.

We also reviewed claim documentation to identify any process exceptions and/or
unusual transactions. Based upon our review of the documentation for the
claims we selected for review, we determined there were no exceptions and
found nothing to indicate that the personal property claims were not handled in a
consistent manner, and in accordance, with TVA’s approved process and
guidelines/criteria.

As mentioned earlier in this report, Mr. Kilgore stated that TVA would be "working
closely with the leaders and residents of Roane County, to make the area better
than it was before the spill." To address current and future economic
development concerns and regain public trust, TVA:

   Committed $43 million for economic development projects.
   Has taken actions to improve community infrastructure, lessen the impact of
    recovery operations on the public, and promote Roane County.
   Partnered with appropriate entities to support the sharing of information and
    coal ash research.
   Has taken actions to improve communication.
   Has provided free independent health screenings.

TVA Economic Development Funding -- $43 Million
TVA, in cooperation with Roane County officials, formed the Roane County
Economic Development Foundation and provided $43 million to fund
infrastructure capital projects, such as school, sewer, and water projects. The
Foundation consists of four Roane County officials (i.e., mayors of Kingston,
Rockwood, and Harriman and the Roane County Executive) and four TVA
management representatives, including three vice presidents and the Kingston
plant manager. The Foundation Charter specifically states:
         TVA desires to provide funding for economic development projects,
         including infrastructure capital projects such as school, sewer, and
         water projects, which will contribute to the long-term recovery and
         success of the communities affected by the ach slide at TVA’s
         Kingston Plant.
Proposed economic development projects were vetted and approved by the
respective city councils, Roane County Commission, and/or public officials before
being submitted to the committee for review and final approval. For example,
funding for Roane County, Tennessee School Facilities Plan was approved by

Inspection 2010-13034                                                           Page 19
Office of the Inspector General                                            Inspection Report


the Roane County Commission on September 28, 2009. Additionally, the plan to
expand and improve Kingston's sewer plant was approved by the Kingston City
Council on February 10, 2009. Both of these projects were approved by the
Foundation in September, 2009.

Once approved, a Funding Agreement is executed for the project. Each project
Funding Agreement specifies that TVA retains the right to audit, without
restriction, all books and records pertaining to each project. We conducted
separate interviews with the mayors of Kingston, Rockwood, and Harriman and
the Roane County Executive. When questioned about the Foundation and
projects, the importance of providing transparency and accountability was
evident. Our (1) review of documentation, including the Foundation Charter,
funding agreements, and city council and county commission resolutions and
(2) interviews with Roane County officials and TVA management find that the
project consideration and approval process provides transparency and
accountability.

The following table contains all the projects that have been approved by the
Foundation.

   ROANE COUNTY ECONOMIC DEVELOPMENT FOUNDATION
                        (APPROVED PROJECTS AS OF JANUARY 2010)

                                                                                   Date
                                  Project                         Amount
                                                                                Approved
Roane County Industrial Park Entrance                                 $31,195   9/16/2009
Harriman's Princess for Arts & Education Conference Center         $1,700,000   9/16/2009
Kingston's Sanitary Sewer Upgrade                                  $5,000,000   9/16/2009
Roane County's School Facilities Plan                             $32,000,000   9/30/2009
Harriman's Public Library Improvement                               $200,000    9/30/2009
Harriman's Road Paving                                               $100,000   9/30/2009
Rockwood's Downtown Revitalization Committee (Main St. Project)        $7,000   9/30/2009
Rockwood's Health Facilities                                          $20,000   9/30/2009
Roane County's Public Relations Assistance                         $1,000,000   9/30/2009
Roane County's Lost Property Taxes                                   $160,296   1/26/2010
Rockwood's Econ Development/Infrastructure Improvement Projects    $1,940,000   1/26/2010
Roane County Alliance's Retail Marketing Project                      $30,175   1/26/2010
Town of Oliver Spring's Economic Plan and Tourism Campaign            $25,000   1/26/2010
                                     Current Amount Allocated $42,213,666
                                    Amount Designated by TVA $43,000,000
                                           Amount Remaining      $786,334
                                                                                 Figure 10




Inspection 2010-13034                                                              Page 20
Office of the Inspector General                                     Inspection Report


TVA’s Community Stewardship
In addition to the $43 million in economic development projects funded through
the Foundation, TVA has taken other actions to improve community
infrastructure, lessen the impact of recovery operations on the public, and
promote Roane County. Those actions have included:

   Utility work along Swan Pond Road and Hassler Mill Road to restore and
    enhance water and gas lines. Figures 11 and 12 reference and show the
    water line enhancement project.




                                                  Figure 11




                                                                Figure 12
Figure 13 shows work being performed on the gas line project.
Inspection 2010-13034                                                       Page 21
Office of the Inspector General                                        Inspection Report




                                                                     Figure 13

   The installation of an additional rail spur in the ash staging area and switching
    in order to eliminate blockage of Swan Pond Road due to train loading of ash.
    Figure 14 shows the train loading area.




                                                                     Figure 14
   Building grade separation (i.e., an underpass under Swan Pond Circle Road)
    in order to move ash from Berkshire Slough back to the site without
Inspection 2010-13034                                                            Page 22
Office of the Inspector General                                         Inspection Report


    interrupting site operations or Swan Pond Circle traffic. This underpass will
    mitigate accident risk by limiting exposure of local traffic to ash moving trucks.
    Figure 15 shows construction of the temporary road that traffic will be
    rerouted to while the underpass is being built.




                                                                      Figure 15

   Limiting dredging near residents to only daytime hours from 7 a.m. to 7 p.m.
   Rebuilding roads that were destroyed in the spill and paving 9.5 miles of
    roads used during construction leaving them better than before the spill.
   Sponsoring the Bass Federation national championship on Watts Bar Lake in
    order to help restore the reputation of the lake.
   Providing local police to control traffic going onto and out of Swan Pond Road
    in the mornings and in the evenings to help residents due to increased
    number of workers and machinery at the site.
   Providing Roane County an economic development strategy through the
    Valley Targeted and Prepared Community Program, which is sponsored by
    TVA Economic Development. The study assessed markets, analyzed county
    strengths and weaknesses, and developed a targeted industry list.

Our interviews with Roane County community leaders found that TVA is working
to regain public confidence and these actions are indicative of the commitment.
While they are complimentary of TVA actions, some concern exists that TVA will
not monitor long-term impacts once recovery is complete. However, the officials
also stated that TVA has responded timely to questions and informational needs.
We additionally found that the Non-Time Critical Removal Action
Inspection 2010-13034                                                             Page 23
Office of the Inspector General                                                            Inspection Report


Embayment/Dredge Cell Action Memorandum approved by the EPA requires that
TVA monitor the environmental effects even after the clean-up is complete.

TVA Sponsored Research Activities
In March 2010, TVA sponsored the TVA Kingston Fly Ash Release
Environmental Research Symposium at Roane State Community College in
Harriman, Tennessee. Oak Ridge Associated Universities (ORAU)11 stated the
purpose of the symposium was to (1) facilitate the exchange of information
among researchers and coordinate site access and sampling logistics and
(2) identify the priorities and gaps in current research and technology regarding
the impact of fly ash in the environment. It was TVA's goal that this symposium
would facilitate development of new beneficial uses of coal combustion products
and new environmental information that would benefit TVA, the utility industry,
regulators, and the public. As stated on ORAU's Web site, sessions were
presented covering the following topics:

     TVA Kingston Recovery Status
     Site characterizations
     Geochemistry
     Ecotoxicology
     Ecological studies
     Environmental Risk Assessment and Management

Speakers at the symposium included: TVA’s Senior Vice President, Environment
and Technology, TVA's senior toxicologist, and representatives from EPA,
ARCADIS,12 Oak Ridge National Laboratory, and the U.S. Army Engineer
Research Development Center.

In addition to sponsoring the research symposium, TVA is funding more than
$2 million in coal ash research grants that are being administered by ORAU.
According to an ORAU press release and interviews with ORAU, ORAU solicited
proposals from applicants interested in conducting basic and applied research on
(1) identifying alternative ways to beneficially reuse and/or process coal
combustion products and (2) examining the effects of coal fly ash releases in the
environment. ORAU received 172 pre-proposals and 68 full grant proposals from
which 6 recipients were selected. According to ORAU, of those finalists, one will
look at alternative uses while the other five will look at long-term effects. In
addition, ORAU solicited proposals for commercial coal ash management,
processing, and marketing services.

11
     ORAU is a university consortium leveraging the scientific strength of 98 major research institutions to
     advance science and education by partnering with national laboratories, government agencies, and
     private industry.
12
     ARCADIS is an international company providing consultancy, engineering, and management services in
     infrastructure, environment, and buildings, to enhance mobility, sustainability, and quality of life.
     ARCADIS develops, designs, implements, maintains, and operates projects for companies and
     governments.
Inspection 2010-13034                                                                               Page 24
Office of the Inspector General                                       Inspection Report




Communication Improvement
Immediately following the ash spill, TVA was criticized for its communication
practices. TVA communication practices were addressed in the OIG Inspection
2008-12283-01 – Kingston Fossil Plant Ash Slide Interim Report. Subsequent to
our report, TVA has made an effort to improve its level of communication by
benchmarking industry practices and implementing a robust process for
standardizing its communication to the media as well as the public. According to
a memo from TVA's Senior Vice President of Communications, in response to
our recommendations, TVA identified four key areas to improve communications:

   Meet the requirements for National Incident Management System training,
    which would allow TVA to communicate effectively with other agencies in an
    emergency.
   Develop a Crisis Communications Plan.
   Create protocols for verifying information in materials for release and
    documenting the necessary reviews and approvals.
   Develop written standards and procedures for conducting media relations
    activities.

TVA has met those goals by developing and/or implementing respective
processes and/or communication tools. These include the development and/or
implementation of the following:

   National Incident Management Training
   Crisis Communications Plan
   TVA news release checklist
   Fact-checking process
   Copy editing process
   Examples of checklist use for reviews/approvals
   TVA news release guidelines
   Media Response Strategy
   Media relations staff guide
   Rapid Response Plan
   Guidelines for letters to the editor
   TVA fact book
   Redesigned Web site
   Talking point and key message templates
   communications plans template
Inspection 2010-13034                                                         Page 25
Office of the Inspector General                                        Inspection Report




In discussions with local community officials, they stated that, overall, TVA has
been doing a better job in communicating with the community. Through
observations and fulfillment of our oversight responsibility, we have determined
that TVA has implemented various mechanisms to address inquiries and provide
information to the Kingston residents and media. Information sources include:

   Periodic public meetings where updates are provided and questions
    answered.
   The Outreach Center, which has information on site clean up progress and
    other TVA initiatives.
   News releases and TVA’s Kingston recovery Web site. In addition to fact
    sheets, reports, and other documents (i.e., TDEC, EPA, and congressional
    hearing information) the Kingston Recovery Web site includes:
    - Environmental test results pertaining to air and water quality monitoring.
    - Kingston Ash Recovery Project Weekly Reports. Examples of information
      topics discussed in the weekly reports include: (1) recovery highlights;
      (2) infrastructure and ash management; (3) ash dredging and processing;
      (4) ash disposition; (5) cenosphere recovery; (6) routine air, water, and
      sediment sampling; (7) dike reinforcement; and (8) communications.
    - Area Resident Information Updates. TVA is posting updates that include
      information on plant activities as well as the clean-up for area residents.
   Message Boards. TVA continues to use electronic message boards
    positioned along Swan Pond Road to alert residents in the surrounding area
    to meetings, train crossings, road closings, etc.

While TVA has worked diligently to improve communications, it has encountered
some lessons learned. Failure of TVA to communicate plans for the overlook
and contracting with ORAU were cited as examples, in addition to the test burn
incident that led to a change in Kingston site-wide communications. Specifically,
a September 18, 2009, test burn release incident referred to as the "Snowflake
Incident," led to TVA stating in the Fall 2009 Report to Our Roane County
Neighbors that "The lack of communication in this situation was completely
avoidable; communication and listening will improve even further." In response
to the incident, the recovery site manager and the communications team agreed
to take the lead for the entire site, not just the clean-up area, but also the plant.
TVA recognized that the culture at the plant must be changed to consider
visibility issues associated with both plant operations and spill recovery. A site-
wide communications and notification plan that includes both the Kingston
recovery site and plant was developed. In addition, to further improve
communications at Kingston, a recovery site employee attends the Plan of the
Day meeting at the plant each morning and a plant employee attends the
Recovery Operations meeting at the end of each day.

Based upon the above actions, we conclude that TVA has improved its
communications efforts and has made process improvements that should
Inspection 2010-13034                                                          Page 26
Office of the Inspector General                                      Inspection Report


facilitate the delivery of timely and accurate information. Kingston community
leaders stated that TVA has responded timely to questions and requests for
information.

Health Monitoring Program
Due to public concern of possible health effects resulting from the ash spill, TVA
partnered with ORAU to provide free, independent health screenings for any
resident who so desired. ORAU brought in four doctors from the Vanderbilt
University Medical Center to conduct the screenings. Each of these doctors
specializes in either epidemiology or toxicology. In total, around 300 people
signed up for the health screenings and 214 of those came in for the screening
as of April 2010.

On August 17, 2010, ORAU released the results of the health screenings
performed in relation to the Kingston Ash Spill. The results showed no adverse
health effects to participants in the medical evaluations performed after the ash
spill. While some results showed above normal levels of certain components
identified in coal ash, reevaluation determined that the increased levels were due
to diet and supplement ingestion. Additionally, ORAU stated they did not expect
any long-term physical health effects and suggested to TVA that testing be
repeated after a period of time to determine whether any changes have occurred.

ORAU attempted to make the screening process simple. In order to sign up,
residents could either go to the TVA Web site and navigate through the "Kingston
Recovery" link, or go to the ORAU Web site directly and navigate through the
"Kingston Plant Health Screening Program" link. Once on the Kingston Project
page within ORAU's Web site, residents could learn more about the program,
look at frequently asked questions, learn about the doctors who performed the
screenings, e-mail ORAU about health concerns, and sign-up for a free
screening. In summary, while TVA’s Kingston Recovery Web site posts
information on the health program initiative, ORAU’s Web site gives those
residents affected by the fly ash spill a place to: (1) sign-up to be contacted for
medical screening, (2) ask Oak Ridge Associated Universities any questions
regarding health concerns or the medical screening process itself, and (3) learn
about the medical screening protocol as well as view related forms. Also,
according to ORAU personnel outreach programs have included providing a
video of a doctor explaining his role in the screenings, passing out inquiry cards,
giving talks about the health screening opportunities and process, and placing a
crawler ad on public television.




Inspection 2010-13034                                                        Page 27
Office of the Inspector General                                           Inspection Report


According to ORAU personnel, TVA was very supportive of their efforts both to
communicate to the community and to perform the screenings. In addition, TVA
wanted to take a "hands-off" approach to the health screenings in order to ensure
that the screenings were done independently. ORAU representatives stated that
it was admirable how TVA stepped up to help the community with both property
damage and health concerns.

MANAGEMENT COMMENTS ON DRAFT REPORT
The Senior Vice President and Executive, Kingston Ash Recovery Project, in
conjunction with the Senior Vice President, Diversity and Labor Relations,
provided comments on a draft of this report. TVA management agreed with our
findings and provided a few administrative and clarifying comments for our
consideration. Specifically, management:

   Provided clarification on the amount of ash that as of June 6, 2010, was transported
    to Perry County, Alabama, for disposal.
   Suggested wording changes to clarify the real property claims adjudication process.

We reviewed and agreed with the technical comments provided and modified the
report accordingly. Management’s complete comments are included in Appendix
C of this report.




Inspection 2010-13034                                                             Page 28
                                                                                      APPENDIX A
                                                                                       Page 1 of 1

        Alternatives Developed in the EE/CA Study

                                   Non-Critical Ash Removal
                                                                                        Timeframe
                                                              Off-Site Disposal
Proposal    Proposal Description             Cost                                          for
                                                                   Method
                                                                                        Completion
            Removal of 2.8 million
             cubic yards from the
                                                                                         2.8 Years +
               embayment and
                                          $439.6 to       910 trains shipped to the     10 months to
Option 1a   disposed of Off-site. A
                                        $455.3 Million      Perry County landfill.      close the Ash
            dike will be installed to
                                                                                            Pond
            keep remaining ash in
               the Dredge Cell.
                                                          35,000 truckloads and 280
            Removal of 2.8 million                              trains. The train
             cubic yards from the                          shipments will be sent to
                                                                                         2.8 Years +
               embayment and                               the Perry County landfill.
                                          $439.6 to                                     10 months to
Option 1b   disposed of Off-site. A                        Trucks shipments will be
                                        $455.3 Million                                  close the Ash
            dike will be installed to                        sent to an approved
                                                                                            Pond
            keep remaining ash in                             landfill, such as the
               the Dredge Cell.                             Chestnut Ridge Landfill
                                                                 near Knoxville.
            Removal of 6.8 million
             cubic yards from the
                embayment and                                                           4 Years + 10
             Dredge Cell, leaving         $719.3 to       870 trains shipped to the       months to
Option 2a
                 enough ash to          $741.1 Million      Perry County landfill.      close the Ash
              reinforce remaining                                                           Pond
            dikes. Disposal will be
                    Off-site.
                                                          35,000 truckloads and 810
            Removal of 6.8 million
                                                                trains. The train
             cubic yards from the
                                                           shipments will be sent to
                embayment and                                                           4 Years + 10
                                                           the Perry County landfill.
             Dredge Cell, leaving         $719.3 to                                       months to
Option 2b                                                  Trucks shipments will be
                 enough ash to          $741.1 Million                                  close the Ash
                                                             sent to an approved
              reinforce remaining                                                           Pond
                                                              landfill, such as the
            dikes. Disposal will be
                                                            Chestnut Ridge Landfill
                    Off-site.
                                                                 near Knoxville.
            Removal of 2.5 million
                                                                                         3.8 Years +
             cubic yards from the
                                          $268.2 to                                     10 months to
Option 3a      embayment and                                         N/A
                                        $315.5 Million                                  close the Ash
              disposed of in the
                                                                                            Pond
                 Dredge Cell.
            Removal of 2.5 million                                                       4.1 years to
             cubic yards from the                                                         close both
                                        268.2 to $315.5
Option 3b      embayment and                                         N/A                Ash Pond and
                                            Million
              disposed of in the                                                         Dredge Cell
                 Dredge Cell.                                                              together
                                                                     APPENDIX B
                                                                      Page 1 of 2

OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to assess TVA's progress in two areas: (1) TVA's
commitment to the Kinston Ash Spill clean-up and the return of the area to its
previous condition and (2) TVA's actions pertaining to reparations to victims and
restoration of the community. The scope of this review includes TVA actions
taken since our previous review regarding spill clean-up and reparations to the
victims and community.

To perform this review, we interviewed TVA and regulatory officials as well as
community leaders. We also obtained and analyzed various documents
pertaining to clean-up and restoration efforts.

To assess TVA's commitment to the Kingston Ash Spill clean-up and return of
the area to its previous condition, we:

   Interviewed key TVA and regulatory personnel to determine their perspective
    on (1) clean-up progress, (2) working relationships, and (3) clean-up
    accomplishments, challenges, and hard spots.
   Obtained and reviewed clean-up documentation and recovery plans. Some
    specific documentation reviewed included the various alternatives for
    disposing of the non-time critical ash, clean-up cost data and estimated
    expenditures, and clean-up dredging, disposal, and environmental
    information.
   Visited Kingston to obtain first hand knowledge of the progress and to verify
    ongoing clean-up operations and the processes utilized in the clean-up. In
    addition to walkdowns of ongoing clean-up operations, we also documented
    operations and assessed clean-up progress through aerial reconnaissance.
   Interviewed TVA personnel, regulatory personnel, and community leaders, as
    deemed necessary, to determine their perspective on (1) TVA's progress in
    meeting its spill clean-up commitment, (2) the adequacy of TVA
    communications regarding clean-up progress and community impact, and
    (3) their input into the final state of the impacted area.

To assess TVA's actions pertaining to reparations to victims and restoration of
the community, we:

   Interviewed key TVA personnel and Roane County officials to ascertain their
    perspective regarding TVA’s actions to address victim and community
    damage and promote Roane County economic development.
                                                                   APPENDIX B
                                                                    Page 2 of 2

   Obtained an understanding of the real and personal property claims
    processes by reviewing supporting documentation, including Board
    Resolutions and policy memorandums, and interviewing key TVA officials.
    Interviews included representatives from the following organizations:
    -   Diversity and Labor Relations
    -   Fossil Generation, Development and Construction
    -   Office of the General Counsel
    -   Realty Services

   Identified, documented, and assessed TVA’s real and personal claims
    processes for reasonableness. We then reviewed selected claim settlements
    to verify process compliance and claim settlement consistency. Specifically,
    we:
    - Obtained listings of completed real and personal property claims through
      May 14, 2010, and March 8, 2010, respectively.
    - Randomly selected 15 of 154 closed (as of May 14, 2010) real property
      claim settlements, totaling $6,448,350 and 15 of 66 personal property
      claim settlements, totaling $225,698 for review.
    - Reviewed documentation and conducted interviews, as necessary, to
      determine if the claims selected for review were handled consistently, and
      in accordance, with approved guidelines/criteria.

   Identified and assessed communications to victims and the community to
    determine what mechanisms TVA has taken to provide timely information and
    updates and improve communication. In addition to attending public
    meetings held collectively by TVA, EPA, the Tennessee Department of
    Health, and TDEC, specific communications media reviewed included:
    - TVA weekly status reports
    - TVA Web site information
    - TVA fact sheets

   Interviewed independent contractors and TVA personnel and reviewed
    documentation to determine what steps TVA has taken to monitor the long
    term health and environmental effects of the ash spill.
APPENDIX C
 Page 1 of 2
APPENDIX C
 Page 2 of 2
